Management Advisory on EEOCs Open Government Activities
Skip top navigation
Skip to content
Español | Other Languages
U.S. Equal EmploymentOpportunity Commission
Home
About EEOC
Overview
The Commission
Meetings of the Commission
Open Government
Newsroom
Laws, Regulations, Guidance & MOUs
Budget & Performance
Enforcement & Litigation
Initiatives
Interagency Programs
Publications
Statistics
Outreach & Education
Legislative Affairs
FOIA & Privacy Act
Doing Business with EEOC
Jobs & Internships
EEOC History
Office of Inspector General
Employees & Applicants
Overview
Coverage
Timeliness
Filing A Charge
How to File
Charge Handling
Confidentiality
Mediation
Remedies
Existing Charges
Filing a Lawsuit
Discrimination by Type
Age
Disability
Equal Compensation
Genetic Information
Harassment
National Origin
Pregnancy
Race/Color
Religion
Retaliation
Sex
Sexual Harassment
Prohibited Practices
Employers
Overview
Coverage
Charge Handling
Resolving a Charge
Remedies
Discrimination by Type
Age
Disability
Equal Compensation
Genetic Information
Harassment
National Origin
Pregnancy
Race/Color
Religion
Retaliation
Sex
Sexual Harassment
Prohibited Practices
Recordkeeping
EEO Reports/Surveys
"EEO Is The Law" Poster
Training
Other Employment Issues
Federal Agencies
Overview
Federal Employees & Applicants
Federal Complaint Process
Discrimination by Type
Other Federal Protections
Prohibited Practices
Federal EEO Coordination
Federal Agency EEO Directors
Laws, Regulations, Guidance & MOUs
Management Directives & Federal Sector Guidance
Federal Sector Alternative Dispute Resolution
Federal Sector Reports
Appellate Decisions
Digest of EEO Law
Form 462 Reporting
Federal Training & Outreach
Contact Us
Contact EEOC
Find Your Nearest Office
Frequently Asked Questions
About EEOC
Overview
The Commission
Meetings of the Commission
Open Government
Newsroom
Laws, Regulations, Guidance & MOUs
Budget & Performance
Enforcement & Litigation
Initiatives
Interagency Programs
Publications
Statistics
Outreach & Education
Legislative Affairs
FOIA & Privacy Act
Doing Business with EEOC
Jobs & Internships
EEOC History
Office of Inspector General
Home > About EEOC > Office of Inspector General
July 15, 2011
MEMORANDUM
TO:
Diedre Flippen, Director
Office of Research, Information and Planning
FROM:
Milton A. Mayo, Jr
Inspector General
SUBJECT:
Management Advisory on EEOCs Open Government Activities (OIG-2011-01-AEP)
CC:
Claudia Withers, Chief Operating Officer
MANAGEMENT ADVISORY
Status of the EEOCs Open Government Activities
BACKGROUND
On January 21, 2009, President Barack Obama issued the Memorandum on Transparency and Open Government, instructing the Director of the Office of Management and Budget (OMB) to issue an Open Government Directive. On December 8, 2009, the OMB issued M10-06, known as the Open Government Directive (OGD).  It requires executive agencies to take specific actions to implement the three principles of transparency, participation, and collaboration that form the cornerstone of open government set forth by the President.
The OGD requires that, among other actions, executive departments and agencies take steps toward creating a more open government by doing the following:
publishing government information online
improving the quality of government information
creating and institutionalizing a culture of open government
creating a policy framework to facilitate open government
Specifically, through expanding the publication of government information online, the OGD promotes increased accountability, informed participation by the public, and creation of economic opportunity. It directs each agency to take prompt steps to expand access to information by making it available online in open formats.  To improve the quality of government information available to the public, senior leaders are to ensure that information conforms to OMB guidance on information quality and that adequate systems and processes are in place within the agencies to promote such conformity.  To achieve the goal of an unprecedented and sustained level of openness and accountability in every agency, senior leaders are challenged to integrate the three guiding principles of open government into the ongoing work of the agency.  Finally, the OGD recognizes the impact of emerging technologies on communication between the government and the people.  Therefore, it stresses the importance of developing policies to realize the potential of technology for open government.
To assist departments and agencies in achieving these goals, the OGD directs them to take specific actions, including:
develop an open government plan that describes the agencys flagship open government initiative and details how the agency will incorporate the principles of transparency, participation, and collaboration into its core mission objectives (within 120 days)
create an Open Government Web site (within 60 days)
identify high-value data sets for publication (within 45 days)
Many large agencies, such as the Departments of Labor, the Interior, and the Treasury, finalized Open Government Plans in fiscal year 2010. Other federal agencies, including some smaller ones such as the Federal Labor Relations Authority (FLRA), the National Transportation Safety Board (NTSB), and the EEOC, lack finalized Open Government Plans.  An OMB official stated that agencies unable to meet the deadlines should try to take the specified actions as soon as they are able. The following is a link to useful information about the OGD: http://www.whitehouse.gov/open.
OBJECTIVES, SCOPE, AND METHODOLOGY
The Office of Inspector General (OIG) conducted this review of the EEOCs Open Government initiative to assess, generally, the Agencys progress toward implementation of the OGD.  This was not a compliance review or a comprehensive performance assessment.  Rather, it was intended to broadly assess the Agencys OGD activities to date and provide observations for its consideration as it proceeds to full implementation of the OGD.
We reviewed Agency OGD planning documents (e.g., comments from Agency managers on a Draft Open Government Plan) as well as the EEOCs public Web site and its intranet, known as InSite.  In addition, we interviewed individuals responsible for Agency Open Government policies and activities, and compared EEOC plans and activities with OGD goals. We also examined OGD implementation by other Designated Federal Entities, including FLRA and NTSB.  The review was performed in accordance with Quality Standards for Inspections, issued in January 2005 by the Presidents Council on Integrity and Efficiency and the Executive Council on Integrity and Efficiency (PCIE and ECIE).
OBSERVATIONS
EEOC Drafted a Functional Open Government Plan
In 2010, the EEOC formed an Open Government Workgroup to develop a draft Open Government Plan.  The Open Government Work group, led by the Director of the Office of Research, Information, and Planning (ORIP), is composed of representatives from various Headquarters offices and a field representative.  In May 2010, the workgroup submitted a draft Open Government Plan to the newly appointed Chair of the Agency (appointed April 2010).
The EEOCs draft Open Government Plan describes activities and actions that meet key OGD requirements, including:
Flagship Initiative RequirementEEOC plans to develop an online case-status program
Transparency RequirementEEOC plans to increase the amount of information available in machine-readable format
Participation RequirementEEOC plans to consider methods to increase dialogue with the public
Collaboration RequirementEEOC plans to explore ways to make information contained in its Office of Equal Opportunity reports and its policies available to other Federal agencies
Additional Open Government Activities
In addition to developing a draft plan, EEOC took several actions to meet OGD requirements.  EEOC created an Open Government initiative web site on February 5, 2010.  The web site, (http://www.eeoc.gov/open/index.cfm), contains information on four topics: information and data; Open Government Plan; evaluating EEOC progress; and feedback and input.  The information and data section contains links to EEOC data available at data.gov (www.data.gov), a website that contains EEOC data sets described later in this document.  The information and data section also contains a link to other information and data, such as budget and performance data, and meetings of the Commission.
The Open Government Plan section states that EEOC is currently working on its plan.  The evaluating progress section contains EEOCs initial dashboard report on EEOCs progress and impact.  The feedback and input sections contains a link to a form soliciting comments on EEOCs published information, publishing priorities, and the Open Government Plan.
Also, the Agency made the following information available via data.gov:
useful data sets, including fiscal years 2007-2009 EEO-1 data (Job Patterns for Minorities and Women in Private Industry), and fiscal year 2009 EEO-4 data (Job Patterns for Minorities and Women in State and Local Government)
fiscal year 2009 Report of the Equal Employment Opportunity Commission on Its Administration of the Freedom of Information Act (FOIA), as directed in the OGD guidelines on transparency
NEXT STEPS FOR EEOC
We believe EEOC should (1) maintain approval of an Open Government Plan as a high priority, and (2) regularly communicate EEOCs Open Government progress with all Agency staff.
If you have any questions, please contact Larkin Jennings at larkin.jennings@eeoc.gov or 202-663-4391.
Privacy Policy | Disclaimer | USA.Gov